audit report



Return to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Beaufort, South Carolina, Police Department
GR-40-99-013  
August 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded to the Beaufort, South Carolina, Police Department (grantee) by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS).  The grantee received a $71,866 grant, No. 95-UM-WX-2414 under the Funding Accelerated for Smaller Towns (FAST) program to hire one officer, and a $25,866 grant, No. 97-CM-WX-0467, under the Making Officer Redeployment Effective (MORE) program to redeploy one officer full-time equivalent (FTE).  The purpose of the additional officers is to enhance community policing efforts.

	In brief, our audit determined the grantee:

Did not use entry-level salaries and fringe benefits to estimate costs in its grant applications. As a result, the FAST grant is overstated by $11,194, and the MORE grant by $4,301.  These amounts will not be needed to fund the positions, and should be deobligated and put to better use by other grantees.

	Claimed $6,341 under the FAST grant for unallowable overtime hours.

	Claimed $450 under the MORE grant for hours that were not supported by the accounting records.
 
These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.